                                                                                                    --
                                                                                                                   Page 1 of 2




MEMORANDUM

Date:         January 28,1999

To:           File #I98090032



                                       C
                                                                         ,

                                             -                  ---- .       -.      .        .!!        ... .-4   . ........ ..   .- -   .   ... .

Via:

Re:

Background:




restored these amounts to the active grant               accordingly.

Investigation:
On August 25, 1998, we called                    o get more information regarding the matter of
                                                          criminal or civil actions, and points of
(contact at the FBI and U.S.                            tated that she was not aware of points of
 contact at the FBI or USDA                                 attorney who, in turn, gave us this
 information.
                                                                                              I

On September 2, 1998, we called                                Attorney, who prosecuted the case
against h-e          secretary                                dentified the FBI Agent contact as
--
 On October 26, 1998, our office received a letter and attachments from NSF employee-
o              that confirmed-ad         reimbursed each of the three NSF grants affected by
 the fraud.

 Findings:
 Based on our communications with t                                               the AUSA, and FBI and
'DOD Agents, we uncovered the following information:
                                                                                         I'
                                                                                          Page 2 of 2


                           he administrative assistant at             a conspiracy with-
'I
                           eaded b                 y              ut of $160,000 of federal grant
                           DoD and NSF.
                Of the $160,000 federal grant money embezzled, $18,686.56 is NSF award money
                from              1 ($12,392.62),               ($5,766.79), arid
                /@Cq?          1 C\
                \$JL I . 1 J ) .
                The investigation was a joint DCIS (~/~-nd                     FBI (S/A
                effort
                - - - - - -.
                'The guilty parties used a false invoice scheme, w h e r e m
                       would place an order with

                -
                a settlement agreement
                              -        ~ u -g u s ?
                DoD has proposed debarment
                                       - -of
                                                                         -
                NSF awards affected received proper reimbursement.


     Based on the above information, we find no reason for NSF to pursue this matter further. In
     agreement with the August 17, 1998 ~ e t t l e m e n t ~ lcredited
                                                                as      back each of the three NSF
     grants affected by the false invoice scheme. In addition, the parties involved have both had
     sufficient penalties imposed on them. -

     The case is closed.
